No.
IN THE
SUPREME COURT OF THE UNITED STATES
MARCUS TYLER SHEFIELD — PETITIONER
VS.
LORIE DAVIS, DIRECTOR— RESPONDENT
CERTIFICATE OF FILING
I certify that in compliance with FRAP 25(a)(2)(A)(iii) that I have deposited MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI
documents in the prison mail system on August/3,2020.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August/3, 2020
Respectfully submitted:
Marcus TyleF'Sheffield

9

